<html>
<title> - A BAD YEAR FOR HUMAN RIGHTS IN VIETNAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 A BAD YEAR FOR HUMAN RIGHTS IN VIETNAM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2018

                               __________

                           Serial No. 115-137

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-344PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d5c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>                              
                                 
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Joseph Cao, former Member of Congress..............     9
Nguyen Dinh Thang, Ph.D., executive director, Boat People SOS....    18
Ms. Dinah PoKempner, general counsel, Human Rights Watch.........    27
``Anthony Le'' (an alias), spokesperson, Brotherhood for 
  Democracy......................................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Joseph Cao: Prepared statement.....................    13
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    21
Ms. Dinah PoKempner: Prepared statement..........................    31
``Anthony Le'': Prepared statement...............................    40

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Vietnam's Persecution of H'Mong Christians, prepared by Hmongs 
    United For Justice...........................................    58
  Statement by the Hoa Hao Buddhist Congregation Central Overseas 
    Executive Committee..........................................    65
  Statement of the Honorable Zoe Lofgren, a Representative in 
    Congress from the State of California........................    68
Written responses from ``Anthony Le'' to questions submitted for 
  the record by the Honorable Alan S. Lowenthal, a Representative 
  in Congress from the State of California.......................    70

 
                 A BAD YEAR FOR HUMAN RIGHTS IN VIETNAM

                              ----------                              


                         THURSDAY, JUNE 7, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order and good 
afternoon. Sorry for the delay to our witnesses. We did have a 
series of votes and both Ms. Bass and I were delayed so I 
apologize for that.
    It has been, ladies and gentleman, as you know, a very bad 
year in Vietnam for human rights. Since the beginning of 2018 
alone, the Vietnamese Government has handed out sentences 
totaling over 100 years in prison and house arrest to human 
rights defenders and democracy advocates.
    In the past year alone, 22 bloggers have been jailed as 
well as six members of the Brotherhood for Democracy. An 
outrageous 15-year sentence was given to Nguyen Van Dai, whose 
wife, Vu Minh Khanh, testified before this committee back in 
2016.
    I will note, parenthetically, we are hoping for his 
release. I would note, parenthetically, that I met with Nguyen 
Van Dai.
    Matter of fact, Dr. Thang helped to arrange it in Hanoi in 
the year 2005 and virtually everyone except one other person--
he was a lawyer representing a number of people on human rights 
cases--were all detained by police and couldn't come and meet 
in his Hanoi law office.
    It was really very, very discouraging and also an insight 
into how repressive the Communist government regime is in 
Vietnam.
    I would note that Scott Flipse, who has done yeoman's work 
for years and is right behind me here, met with Nguyen Van Dai 
in Hanoi in 2007 and 2009 while he was in prison.
    So we have had a long-standing concern that we have 
expressed over and over again for him and for the others who 
have been held unjustly by the Vietnamese Government.
    The Vietnamese Government has gotten a free pass on human 
rights for far too long. There are currently at least 169 
political religious prisoners in Vietnam including bloggers, 
labor union activists, and democracy advocates and religious 
leaders.
    Freedom House rates Vietnam as not free and possessing of 
some of the world's highest press in internet restrictions.
    The U.S. Commission on International Religious Freedom 
again this year recommended that Vietnam be designated as a 
country of particular concern for egregious religious freedom 
abuses.
    I would note that I am disappointed when the new list came 
out and I did personally lobby the administration. We didn't 
get any luck with the last administration or with the Bush 
administration, which took it off CPC category, and so far not 
yet with the new Trump administration.
    U.S. policy has failed the Vietnamese people. This is a 
bipartisan criticism. We have enriched Vietnam's Communist 
leaders and coddled their interests at the expense of the hope 
and desires of the Vietnamese people for liberty and human 
rights, which they are striving to achieve but have been, 
unfortunately, repressed.
    The Trump administration does have an opportunity to bring 
about real reforms in Vietnam if and only if human rights 
improvements are linked to better U.S.-Vietnamese relations.
    The U.S. has leverage to encourage reform. Vietnam needs a 
strong U.S. partnership, particularly as China's aggressiveness 
increases.
    The question is will there be leverage and will this 
leverage be used to help the people of Vietnam or will our 
acquiescence or indifference be used to help the Communist 
leaders?
    I have been to Vietnam a number of times on human rights 
trips. I've met with its rights advocates--young activists--for 
decades. The younger generation in Vietnam--66 percent of 
Vietnam is under the age of 40--looks to the U.S. as a land of 
opportunity and a land of freedom.
    This generation wants the same liberties enjoyed by their 
relatives living in California, Texas, Virginia, Louisiana, in 
my home state of New Jersey, and so many other places where 
former Vietnamese have flourished.
    They want to speak freely, blog freely, worship God freely, 
and be free to choose and change their leaders. Failing to 
press for concrete human rights improvements underestimates 
U.S. leverage and will disappoint the young generation of 
Vietnam, who are that country's dynamic future.
    The President will face pressure from his advisors and the 
business community, especially the business community, to look 
at Vietnam through the lens of trade deals and containment of 
China.
    Hopefully, he will be able to see the situation more 
clearly than past administrations, and that's a bipartisan 
criticism. Both Republicans and Democrats in the White House 
have not done what they could have done to make a difference.
    No government that represses its own people or restricts 
fundamental freedoms can be a trusted ally of the United 
States.
    No government that censors the internet, tortures, and 
jails dissidents, crushes civil society should be given 
generous trade and security benefits without conditionality.
    Robust championing of individual rights will meet with some 
success, if recent history is our guide. The Vietnamese 
Government has responded to concerns expressed by the last two 
administrations when they linked human rights improvements to 
better U.S.-Vietnamese relations.
    Whether to gain entry into the World Trade Organization--
WTO--the TPP--Trans-Pacific Partnership--or to address U.S. 
concerns over religious freedom, the Vietnamese Government took 
steps when we insisted and when they were pressed by American 
Presidents.
    It is when the U.S. loses interest in human rights that 
conditions regress, as it has in the past year. The business of 
the Communist party is staying in power and repressing those 
that they believe will challenge their power.
    They will not embrace human rights improvements or the rule 
of law unless it's a firm condition of better relations with 
the U.S.
    Putting human rights and the rule of law at the center of 
bilateral relations is the goal of H.R. 5621, the Vietnam Human 
Rights Act, bipartisan legislation that I introduced last 
month.
    I will note parenthetically that that bill--there is 
different iterations of it but with a lot of input, including 
from some of our witnesses including Dr. Thang, has passed the 
House four times.
    It always gets over to the Senate and holds are placed on 
it, and those holds are to the detriment of the Vietnamese 
people. Hopefully this year we will see a change.
    The bill emphasizes the connection between human rights 
improvements and U.S. interests and states that U.S. policy 
should prioritize the freedom of religion, freedom of the 
press, internet freedom, independent labor unions--which are 
nonexistent--the protection of women and girls from 
trafficking, and advances in the rule of law as critical 
components of both U.S.-Vietnamese relations and any U.S.-led 
effort to ensure free and open Indo-Pacific region.
    And I mentioned the bill had passed four times--three times 
as a free-standing bill, once as an amendment--and even then 
when Frank Wolf was willing to get it into an appropriations 
bill, a senator, stepped in and objected and out it came. So 
it's time for that to end.
    I would like to now yield to my good friend and colleague, 
Ms. Bass, for any comments you might have.
    Ms. Bass. Thank you, Mr. Chairman, for calling today's 
hearing and bringing attention to the myriad of human rights 
violations in Vietnam.
    Just over 1 year ago, we had an important hearing on how 
religious freedom and human rights in Vietnam are critical to 
the U.S. national interest.
    Starting from the restoration of diplomatic relations with 
Vietnam in 1995, the bilateral relationship with the United 
States has grown considerably, especially in trade and 
investment.
    Over the past decade, U.S. exports to Vietnam have 
increased over ninefold from $10 billion in 2016, U.S. imports 
in 2016 were $10 billion, up 43 percent from 2015 and 823 
percent over the past decade.
    The relationship between our two nations is animated by the 
increase of Vietnamese who have immigrated to the United 
States. Over 1.3 million immigrants call the U.S. home.
    The deepening of this relationship, however, is going to 
depend on how much progress the Government of Vietnam makes on 
critical human rights, namely, free press and political 
descent, land expropriation, religious freedom, workers' 
rights, and human trafficking.
    Unfortunately, the trend lines are not positive. CNN 
reported that six human rights activists in Vietnam have been 
sentenced to between 7 and 15 years in jail.
    As was mentioned by the chairman, the Hanoi People's Court 
has given the longest sentence to human rights lawyer, Nguyen 
Van Dai for trying to overthrow the People's administration.
    The judgment comes amid a wider crackdown on peaceful 
dissent that has seen several bloggers and human rights 
activists given long jail sentences in the last 12 months.
    During 2017, authorities arrested at least 21 bloggers and 
activists or exercising their civil and political rights. They 
were arrested for national security offenses but in reality, 
the offenses included writing articles critiquing the 
government--critical of the government, and peaceful activism.
    Added to this, the Vietnam--Vietnam's legislature is set to 
pass a Cybersecurity law that would provide the government 
another means by which to silence and punish those critical of 
the government.
    This is a deeply disturbing trend and one that the 
Government of Vietnam needs to halt and reverse. I look forward 
to hearing the views, perspectives, and recommendations and I 
want to thank the chairman for allowing two of our colleagues, 
Zoe Lofgren and Alan Lowenthal, to participate in this hearing.
    Mr. Smith. Thank you.
    I'd like to yield to Chairman Rohrabacher.
    Mr. Rohrabacher. Well, I was not prepared to have an 
opening statement but I will just speak from the heart, which 
is what makes us all Americans is that we believe in freedom.
    That's what it's supposed to do. There are no greater 
champions of freedom that I know than Vietnamese Americans who 
have suffered tyranny and suffered under what now is not even a 
Communist government but a crony capitalist government that is 
totally oppressive of its people. There is very little 
difference between that and what the Communists believed except 
the Communists were sincere.
    The gang that now--because they thought they were going to 
change the world by oppressing everybody and eliminating 
religion, getting rid of democratic notions. The group that now 
controls Vietnam is a group of gangsters that have their clique 
and they are oppressing anyone who might get in their way.
    And one thing I would like to ask the panel, I know--now, 
Mr. Chairman, as you know, I opposed the Magnitsky Act--only 
the title, however.
    I supported and support the idea of holding accountable 
those people who are committing human rights violations--those 
individuals and those specific offices overseas. I don't think 
the Magnitsky was the--was the proper name because I think that 
particular case is still decided as to what happened.
    But the idea of punishing specific individuals overseas for 
their human rights violations is a good idea and I call on you, 
Mr. Chairman, and the rest of my members here, let's find out 
who specifically in Vietnam are conducting these human rights 
and hold them specifically accountable.
    And I pledge my support to the Vietnamese community in 
achieving that goal. Thank you very much and thanks for holding 
this very important hearing.
    Mr. Smith. I'd just point out to my friend, and I'll go to 
Ms. Zoe Lofgren, in our new bill, as I think the gentleman 
knows, we do have a strong admonishment to the administration 
to use the Magnitsky Act and also use the tools that are in the 
International Religious Freedom Act, which I sponsored.
    We named it after Frank Wolf, the great champion of 
religious freedom. But there are brand new tools that 
Brownback--and of course, the President--has now. Brownback is 
the Ambassador-at-Large for religious freedom--he can really 
bring to bear on Vietnam.
    I do think we missed an opportunity when we did not--we, 
the U.S. Government--did not designate Vietnam as a CPC 
country. But that can be done at any time.
    It doesn't have to be done annually. It can be done anytime 
and I think the record absolutely invites that because they 
have a horrific record of religious persecution.
    I'd like to yield to Zoe Lofgren.
    Ms. Lofgren. Well, thank you, Mr. Chairman and Ranking 
Member Bass. I want to thank, you know, Chairman Smith, and 
Representative Lowenthal and I co-chair the Vietnam Caucus and 
although this is an official Foreign Affairs Committee, it's 
very gracious of you to allow us to participate and I 
appreciate it very much.
    This is an important topic how the government in Vietnam is 
using Article 79 to oppress people and to suppress free speech. 
Some of the tools that we might have that have not yet been 
utilized amid the Human Rights Act that we have passed 
repeatedly, the Magnitsky Act that has been mentioned.
    I look forward to hearing from the witnesses and so we can 
get to them sooner. I would just like to ask unanimous consent 
to put my remarks in the record.
    Mr. Smith. Without objection, so ordered, and thank you.
    I'd like to yield to Mr. Garrett? No?
    Mr. Garrett. I would yield back my time.
    Mr. Smith. Mr. Lowenthal, the gentleman from California.
    Mr. Lowenthal. Welcome, ladies and gentlemen. Thank you for 
all attending and I thank also the chairman, Chairman Smith, 
for inviting me to participate and I appreciate that and also 
Ranking Member Bass, I appreciate that.
    As one of the co-chairs of the congressional Vietnam 
Caucus, I've advocated in Congress on the issue of the human 
rights abuses in Vietnam.
    During my time in Congress, I have adopted several 
Vietnamese prisoners of conscience who are unfairly and 
unjustly jailed for their political and religious beliefs. Two 
of my prisoners of conscience, Pastor Nguyen Cong Chinh and 
Nguyen Tien Trung, have been released.
    I want to thank BP SOS for their work in helping to 
relocate the pastor, Pastor Nguyen Cong Chinh, to the United 
States.
    Unfortunately, this is not the fate of the many of the 
others who have been imprisoned for their act. I want to 
highlight and point out the case of Nguyen Van Dai, a pro-
democracy activist, co-founder of the Brotherhood for 
Democracy.
    Mr. Nguyen is one of my current prisoners of conscience. 
He's a human rights lawyer, a blogger who was recently 
sentenced to--unjustly to 15 years in prison for what? For 
speaking out against human rights abuses.
    He traveled throughout Vietnam to teach law students and to 
train young human rights defenders on human rights reporting 
mechanisms, how to deal with police interrogation, and then he 
was tried for conducting propaganda against the state. He was 
sentenced to prison and forced to close his office.
    You know, throughout the Tom Lantos--through the Tom Lantos 
Human Rights Commission I've advocated for the release of Mr. 
Nguyen.
    I want to also acknowledge Mr. Anthony Le, who is here 
today. He's a spokesperson for the Brotherhood for Democracy, 
and I look forward to hearing from his testimony.
    Again, I just want to--in concluding, I want to highlight 
another prisoner of conscience of mine, the Most Venerable 
Thich Quang Do, the Supreme Patriarch of the United Buddhist 
Church of Vietnam.
    The Patriarch has been jailed numerous times for leading 
nonviolent protests against the Vietnamese Government and for 
calling for religious freedom.
    He is currently under house arrest. It is unconscionable 
that the Venerable--the Supreme Patriarch is kept in jail or at 
least under house arrest now.
    And then I want to thank--and I'll just end--Chairman Smith 
and the other co-chairs of the Vietnam Caucus for Chairman 
Smith's work on H.R. 5621. I am glad to participate in that and 
to help.
    It imposes, among other things, it would invoke sanctions 
per the Magnitsky Act. It would impose financial and travel 
restrictions for human rights abusers and it calls for the 
release of religious and political prisoners and designates 
Vietnam as a country of particular concern.
    I look forward to the testimonies and, again, I thank the 
chair for inviting.
    Mr. Smith. Thank you, Mr. Lowenthal.
    Mr. Garrett.
    Mr. Garrett. Thank you, and reclaiming my time. I just felt 
like saying that.
    I want to speak briefly because I know that sometimes in 
this body it's frustrating. We don't feel like we are getting 
things done.
    But I do that people in the Republic of Vietnam watch these 
hearings and so I want to take this opportunity in front of 
this assembled group as well as these distinguished guests to 
speak to my vision at it relates to our interaction with the 
nation of Vietnam.
    I had the honor with the ACYPO prior to my entry into this 
August body to visit Vietnam and what I watched was a dynamic 
emerging economy with opportunity and all sorts of good leading 
indicators for the future.
    However, the good facts as it relates to Vietnam as well as 
their geographic location adjacent to China, who seems more and 
more bent on hegemonic behavior within the region and the 
emerging economy will not aid in relations with the United 
States, despite the fact that we want to encourage those would 
stand against that hegemonic behavior by China, those who would 
engage in good international economic relations, and those 
economies that are vibrant and emerging to do so so long as 
human rights violations persist.
    And I stress that point and that is the only reason that I 
reclaimed time so that those in Vietnam who are watching this 
understand that the people in this body on both sides of the 
aisle appreciate the tools that are at our disposal.
    I don't know what took us so long to get Global Magnitsky 
but I think now that we have it we need to be willing to use 
it--that we should engage in trade relations with nations who 
honor basic human dignities and rights, which include the 
freedom of expression, the freedom to love who you wish, 
worship how you want, or behave how you will so long as you do 
not harm another, and these things aren't occurring in Vietnam.
    So, in essence, Mr. Chairman, as long as Vietnam recognizes 
basic fundamental human rights it's exciting to think about the 
prospects going forward and the relations between our nations, 
particularly in light of the history between our two nations.
    But so long as they stymie the basic expression of 
individuals and disallow individuals from seeking their own 
conscience, soul, and self-determination as it relates to their 
beliefs, then this will stymie this relationship.
    And let that, if I have any contribution to this body 
today, be the message that I send.
    We want to work with you. We want to trade with you. We 
want to be friends with you.
    But if we are who we aspire to be as a nation, we will not, 
until you recognize basic human liberties.
    Thank you.
    Mr. Smith. Thank you very much, Mr. Garrett.
    I'd like to now introduce our distinguished panel, 
beginning from my left, your right. It is a high honor and 
privilege to welcome back Anh Joseph Cao, the first Vietnamese 
American to be elected to the United States Congress, 
representing the 2nd Congressional District of Louisiana.
    At the age of eight, Anh Joseph Cao was placed by his 
mother onto a U.S.-bound plane fleeing Saigon with his 4-year-
brother and 14-year-old sister.
    His mother stayed behind to raise five children while her 
husband spent 7 years in reeducation camps where he was 
tortured repeatedly.
    In the United States, Anh was separated from his siblings 
and raised by an uncle. Later, he moved to Falls Church, 
Virginia, where he volunteered with Boat People SOS, working to 
protect the last boat people stranded in Southeast Asia and 
Hong Kong, and to secure the resettlement of reeducation camp 
survivors.
    In the fall of 1997, Anh returned to New Orleans to attend 
law school and join the board of directors of Boat People SOS 
there.
    We appreciate his service here in Congress. He was an 
absolute leader on human rights in general but especially for 
the Vietnamese. I thank him for the insights that he has 
provided years to date and I know will again today.
    Next, we will hear from Dr. Nguyen Dinh Thang. Dr. Thang 
left Vietnam with his family as a boat person in 1978 and 
arrived in the United States in 1979 after 7 months in a 
refugee camp in Malaysia.
    He graduated with a Ph.D. in mechanical engineering in 1986 
and worked for 15 years at a research lab out of the United 
States Navy.
    For the past 35 years, he has been involved in community 
services, refugee protection, and human rights advocacy in the 
United States and in Asia.
    Under his leadership, Boat People SOS has grown into an 
international organization with operations in 14 locations in 
the U.S. and in Asia.
    In 2008, he co-founded the Coalition to Abolish Modern-Day 
Slavery in Asia called CAMSA, which has so far rescued and/or 
assisted over 5,000 victims of labor and sex trafficking.
    He travels extensively to Asia and closely monitors the 
human rights conditions of Vietnam, and I would just note 
parenthetically before going on to our other very distinguished 
witness--Dr. Thang--when the comprehensive plan of action was 
being closed with about 40,000 stranded refugees in Southeast 
Asia, we had very credible insights and information that many 
of the people who were true refugees had been improperly 
screened out by the Clinton administration.
    I held five hearings. Dr. Thang provided insight at those 
hearings that pointed out--which became something that we acted 
upon--that many people were intimidated if they got anything 
wrong in their interviews, which were very, very hostile.
    They weren't U.S. adjudicators. They were people from Hong 
Kong and elsewhere who didn't want them there, and I remember 
going to High Island in Hong Kong and seeing refugees there and 
being told how hostile it was.
    We had one man who was a double amputee who said, ``I have 
a target on my back if I go back. I fought in the war and they 
are trying to forcibly repatriate me,'' and they were calling 
it voluntary repatriation.
    So from those hearings, Dr. Thang and Joseph Rees, who was 
then our chief of staff, and I worked on an amendment that led 
to the ROVR program and over 20,000 Vietnamese people were 
actually given asylum here as a direct result of that program.
    That would not have happened without Dr. Thang and I want 
to thank him for that. I remember offering the amendment on the 
floor and it passed, against all odds. It wasn't supposed to 
pass.
    And one of the things that they told us--and this is part 
of the disinformation campaign that some even--well, many 
people told us that anybody who was going back would have a 
repatriation monitor.
    So I had a hearing on repatriation monitors. Turns out 
there were seven of them, and what did those seven do? When 
they would go back and talk to someone who was forcibly 
repatriated, right next to them would be someone from the 
secret police.
    Who in their right mind is going to say, ``I am being 
discriminated against, or hurt, or in any way maltreated,'' 
with that person sitting there?
    So when the repatriation monitor exits the town or hamlet, 
whatever it might be, or a village, they are left to deal with 
those consequences. It was a farce. We used that in our debate 
and, thankfully, we got the ROVR program out of it.
    I would now like to welcome Dinah PoKempner, who is general 
counsel for Human Rights Watch. Her work has taken her to 
Cambodia, the Republic of Korea, Vietnam, the former 
Yugoslavia, and elsewhere, and documenting and analyzing 
compliance with international humanitarian law, war crimes, and 
violations of civil and political rights.
    She has written on freedom of expression, peacekeeping 
operations, international tribunals, U.N. human rights 
mechanisms, cyber liberties and security in refugee law, among 
other human rights topics, and oversees the organization's 
positions on international law and policy.
    A graduate of Yale and Columbia University School of Law 
and a member of the Council on Foreign Relations, Ms. PoKempner 
also teaches at Columbia University. We welcome her here and 
are grateful that she's here today to testify.
    We will then hear from Anthony Le, who is here today as 
spokesman for the Brotherhood for Democracy. He has 
participated in the struggle for the basic civil rights of the 
Vietnamese workers, farmers, and fishermen under the Communist 
regime.
    He and other assigned members have organized regular 
workshops for workers about their rights and advocacy skills 
for their rights and interest in addition to equipping them 
with the knowledge about organizing independent labor unions 
that currently do not exist, as I said earlier, in Vietnam.
    We deeply appreciate his presence here today, and I also 
would like to welcome Angela Huyen, who will be acting as his 
translator today.
    Congressman Cao, the floor is yours.

    STATEMENT OF THE HONORABLE JOSEPH CAO, FORMER MEMBER OF 
                            CONGRESS

    Mr. Cao. Thank you very much, Chairman Smith.
    First of all, I would like to thank Chairman Smith and 
Ranking Member Bass for holding this important hearing today 
concerning Vietnam's human rights abuses this past year.
    Indeed, it was a bad year for human rights in Vietnam. 
Fortunately, the Vietnamese American community has Chairman 
Smith and members of this subcommittee who have been champions 
for human rights in Vietnam and around the world for as long as 
I can remember.
    As Chairman Smith stated, my first encounter with him came 
in 1996. I first met Chris Smith as an intern of Boat People 
SOS to advocate for the rights of Vietnamese refugees.
    He listened attentively to an unknown 29-year-old 
Vietnamese American who had little experience lobbying for 
human rights on Capitol Hill.
    I returned to Washington, DC, 13 years later as a Member of 
Congress and there was Chris Smith, serving as my colleague and 
guide on the legislative process to bring about changes to the 
human rights conditions in Vietnam.
    Today, I appear before this subcommittee as a former Member 
of Congress and here is Chris Smith, still listening with the 
same attentiveness and determination to make this world a 
better place.
    Thus, my relationship with Chairman Smith spans over two 
decades, and with the help and sometimes even the lead of other 
human rights advocates such as Tham Nguyen, Dr. Tram Ho, 
Reverend Tam Huu Pham, Mr. Truc Ho, and countless others, we 
were able to bring about some changes, but change has been 
slow.
    Severe human rights abuses continue in Vietnam and data 
suggests these abuses are mounting. Mr. Chairman, the 
principles of religious freedom, freedom of expression, freedom 
of conscience, freedom to organize, and the freedom to own 
property have served as the bedrock of our great nation or over 
two centuries.
    Not only do we defend our citizens against those internal 
forces that seek to suppress these freedoms, we fought and have 
given our lives to defend these freedoms against foreign 
nations that threaten to destroy these values.
    We have demanded of ourselves that these freedoms must be 
preserved at all costs and we demand the same from those 
nations with whom we associate.
    In the case of Vietnam, the U.S. Congress has repeatedly 
required that the Vietnamese Government adhere to universal 
standards on human rights for decades, but little has been 
achieved.
    The Vietnamese Government, in 2017, committed what is 
regarded as an outright assault on freedom and universal human 
rights.
    Instead of using the Asia-Pacific Economic Collaboration 
Summit, which was held in Vietnam, to demonstrate its adherence 
to universal standards on human rights, the government 
amplified human rights abuses including against freedom or 
religion or belief.
    According to the USCIRF, the assault on the freedom of 
religion, expression, association, and assembly was nationwide, 
signifying a concerted effort to suppress and silence critics 
and peaceful activists.
    Vietnam systematically harassed, arrested, imprisoned, and 
tortured dissidents, democracy activists, bloggers, and 
religious leaders on an unprecedented scale not since the end 
of the Vietnam War.
    Thus, the Vietnamese Government's previous willingness to 
engage in dialogue on issues of human rights and religious 
freedom was only a ruse to gain benefit, and after the benefits 
have been gained, it reverts back to its old ways.
    But Vietnam has gotten smarter. To be able to wash their 
hands of the crimes committed against those who love freedom, 
they conspire with thugs and criminals to silence dissent.
    One through of such thugs is the Red Flag Association, a 
militant pro-government mob aimed at harassing Catholics. As a 
Catholic myself, I find this particular distasteful.
    The Red Flag Association's goal is to suppress and hamper 
protests against the Formosa Steel Plant, whose illegal toxic 
dumping caused one of the greatest environmental disasters in 
Vietnam and brought suffering to the hundreds of thousands of 
Vietnamese who depended on the rivers and seas for their 
livelihood.
    Moreover, they sowed division between Catholics and non-
Catholics, intimidate parishioners, vilify priests, attack lay 
leaders, and desecrate churches and homes.
    The association's membership consists of local security 
forces, government employees, members of government-sponsored 
organizations, unemployed adults, and street thugs.
    The Red Flag leaders, among others, consist of Tran Nhat 
Quan, Le Thi Quynh Hoan, Nguyen Trong Nghia. According to the 
USCIRF, the harassment and assaults carried out by the Red Flag 
Association were government directed or government tolerated.
    An egregious incident involving the Red Flag Association 
occurred recently in Nghe An Province. On December 23rd, 2017, 
a group of thugs belonging to the association went to Ke Gai 
Parish and harassed, intimidated, and assaulted the 
parishioners while they were working on an irrigation project 
on their land near the church.
    A criminal complaint was filed with the Nghe An police 
against the perpetrators. Instead of arresting the thugs, Nghe 
An Province police prosecuted the victim and all witnesses of 
the criminal incident.
    Groups belonging to the Red Flag Association also carry out 
acts of harassment and violence in Song Ngoc, Van Thai, and 
Doing Kieu Parishes in Nghe An Province.
    Acts were also carried out in Vinh Diocese in central 
Vietnam and Tho Hoa Parish in Dong Nai Province.
    However, these actions are only the tip of an iceberg. 
Government-sanctioned land grab against religious institutions 
continues unabated for personal profits and economic gains of 
corrupt officials.
    One example is Thu Thiem Convent belonging to a 
congregation of Catholic nuns who, on May 1st, 2018, received a 
notice from the People's Committee of Ho Chi Minh City 
requiring that the church be moved or face confiscation because 
the church is located on a block of land illegally auctioned to 
a developer, who intends to convert the land into a 
marketplace.
    Furthermore, how ironic that the APEC Summit, attended by 
President Trump in November 2017 was held at a resort in Da 
Nang City, owned by the very developer that took over the land 
illegally seized with the use of harassment, detention, and 
torture from Con Dau Parish, and incident that I, and Chairman 
Smith, condemned but was unable to prevent as we looked on 
helplessly.
    However, we are no longer helpless. The passage of the 
Global Magnitsky Human Rights and Accountability Act, which 
President Obama signed into law on December 23rd, 2016, now 
enables this House to bring justice to the victims of Con Dau 
Parish.
    Pursuant to the Global Magnitsky Human Rights and 
Accountability Act, I would like to submit the following 
officials who were involved in the illegal land grab of Con Dau 
Parish for sanction, and for the sake of brevity I'll just 
simply mention their names.
    First is Nguyen Ba Thanh, Tran Van Min, Van Huu Chien, Vo 
Van Thuong, Le Quang Nam, Nguyen Van Tien, Le Van Tam, Tran 
Muu, Huynh Duc Tho, Nguyen Dieu, Nguyen Van Toan, Le Viet Lam, 
Ho Thi Nga, Le Viet Hieu, Phan Huu Phung, Dang Hong Phuc, 
Nguyen Ngoc Tuan.
    The incidents enumerated above is but a fraction of the 
abuses that the Vietnamese Government has inflicted on its own 
people in the past years.
    USCIRF annual report 2018, Vietnam chapter, outlines 
numerous accounts of other acts, which I will not enumerate 
here, and Dr. Thang Nguyen will direct this subcommittee's 
attention to Vietnam's law on belief and religions implemented 
in January of this year, which could open the door to further 
oppression and restriction on the freedom of religion.
    I commend President Trump in his meeting with Prime 
Minister Nguyen Xuan Phuc on May 31st, 2017, which stressed the 
importance of protecting and promoting human rights in Vietnam.
    However, I believe more must be done. In agreement with the 
USCIRF, I suggest, one, Vietnam be redesignated as a country of 
particular concern; two, economic and trade negotiations must 
address human rights and religious freedom abuses in Vietnam; 
three, Vietnam must be required to provide concrete benchmarks 
in the promotion of human rights and religious freedom; four, 
Vietnam promptly release prisoners of conscience and democracy 
activists who were arrested and imprisoned under dubious laws; 
five, return and/or adequately compensate victims of illegal 
land grab; six, a transparent system of compensation for the 
victims of the Formosa environmental disaster be implemented; 
and seven, the passage of the Vietnam Human Rights Act.
    In closing, I would like to once again thank Chairman Smith 
and members of the subcommittee for holding this important 
hearing.
    In due respect, I would like to direct the subcommittee's 
attention to the work of Queen Rania Al Abdullah of Jordan. 
When you deprive people their rights to live in dignity, to 
hope for a better future, to have control over their lives--
when you deprive them of that choice, then you expect them to 
fight for these rights.
    Staying faithful to the principles that make our nation 
great, we will fight for the rights of those who do not have a 
voice.
    We ask that this House and this administration will heed 
the voice of the oppressed around the world, particularly those 
of the people of Vietnam.
    Thank you very much.
    [The prepared statement of Mr. Cao follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Congressman Cao, thank you very much for your 
eloquent statement and, again, for your leadership.
    Dr. Thang.

STATEMENT OF NGUYEN DINH THANG, PH.D., EXECUTIVE DIRECTOR, BOAT 
                           PEOPLE SOS

    Mr. Thang. Mr. Chairman and distinguished members of the 
subcommittee, thank you for using this timely hearing to shine 
a spotlight on the worsening human rights condition in Vietnam 
and also thank you for bringing us together because this is an 
opportunity for me to see Dinah PoKempner after 25 years.
    Dinah used to work with us--collaborate with us on projects 
to push back forced repatriation of Vietnamese boat people in 
Hong Kong.
    Since late 2016, we have documented a surge in the number 
of prisoners of conscience and the government's more aggressive 
drive to force members of unregistered churches to renounce 
their faith or to convert to government-created or controlled 
religions.
    We have documented so far some 170 prisoners of conscience 
in Vietnam. I should have added four more--these are Falun Gong 
members which just got sentenced to 3 years of prison recently.
    And one-third of those prisoners of conscience on our list 
are actually religious prisoners. In the first 5 months of this 
year, 23 human rights advocates have been sentenced a total of 
172 years in prison followed by 41 years of house arrest, and 
among them four members of the same Hoa Hao Buddhist family are 
serving a total of 17 years of imprisonment.
    The ongoing brutal persecution of Hoa Hao Buddhists is 
documented in a report by the Hoa Hao Congregation Central 
Overseas Executive Committee, which, with your permission, I 
would like to include as part of this testimony.
    The Government of Vietnam has stepped up its game, 
enforcing followers of independent unregistered churches to 
renounce their faith.
    Forced renunciation of faith has caused the membership of 
the Montagnard Evangelical Church of Christ, which was founded 
by a former prisoner of conscience, Pastor Nguyen Cong Chinh, 
that was mentioned by Mr. Lowenthal just now, to plummet from 
its high of 1,500 members just 18 months ago to merely 500 
today, and at least 1,100 families of Hmong Christians in the 
north and central Vietnam have been denied citizenship 
documents and evicted from their villages because they refused 
to abandon their Christian faith.
    The circumstances I describe in detail in a report by Hmong 
United for Justice, which, with your permission again I would 
like to include as part of my testimony.
    Registration requirements is the government's most potent 
instrument to force members of unregistered churches to abandon 
their faith and/or join government-created or controlled 
churches.
    The growth of the latter spells the decline and demise of 
independent religions but is often mistaken as a sign of 
improved religious freedom in Vietnam.
    One prime example is the massive forced conversion of 
millions of Cao Dai followers which has gone unnoticed by the 
international community for the past two decades.
    In 1978, the Vietnamese Government sweepingly abolished the 
Cao Dai Church altogether. Then in 1997, by a directive of the 
Communist Party, the government created a totally new sect 
which repudiates the most fundamental dogma of Cao Dai religion 
and that is direct communion between the Supreme Being and 
humanity through spiritualism. For ease of reference, I will 
call this newly-created government-created sect the 1997 Sect--
the year it was formed.
    With government support, it has occupied the Holy See of 
the Cao Dai religion in Tay Ninh Province and has barred Cao 
Dai followers--true Cao Dai followers from accessing it.
    In 2008, for instance, the Vietnamese public security 
issued an arrest warrant against Mr. Zun Sun Lung--and he was 
here in Congress to talk to some of you, Members of Congress--
because he was suspected of organizing a gathering on the 
grounds of the Holy See. He had to be on the run for 8 years 
before he successfully escaped to Thailand and he came to this 
country last year.
    A more recent gathering in 2015 of 200 Cao Dai followers at 
their own Holy See was met with violence by the police and the 
security unit of the 1997 Sect.
    This sect has systematically seized Cao Dai temples 
throughout the country, often using force and violence with 
support of the police and thugs.
    For more than 8 years, for instance, Cao Dai followers in 
Saigon had to conduct prayer services on the pavement outside 
of the temple after it had been taken by force by the 
government-created sect.
    In 2012, as another example, members of the 1997 Sect, with 
the support of government officials and thugs, seized the Cao 
Dai Temple in Binh Duong Province by force.
    The local leader of that sect poured gasoline on a young 
Cao Dai follower and was about to set him on fire when other 
sect members stopped him. Of the hundreds of Cao Dai temples, 
all except 15 have been seized by the government-created sect.
    To coerce Cao Dai followers to convert, the 1997 Sect has 
routinely disrupted religious activities conducted in private 
homes.
    On November 11, 2015, its members, accompanied by the 
public security police and thugs, entered the home of a female 
Cao Dai follower in Tay Ninh Province, broke off the ongoing 
religious ceremony, and trashed food being served to guests 
because she had not asked the 1997 Sect for its blessing.
    We have documented some 20 similar incidents in different 
cities and provinces so far. Less than 5 months ago, earlier 
this year, the 1997 Sect blocked the burial of a 78-year-old 
Cao Dai follower because his mourning family members had 
invited clergy members of the real Cao Dai religion to the 
funeral, and just last week we received reports that many tombs 
of Cao Dai followers being desecrated by the 1997 Sect.
    The government-created sect is different from the Cao Dai 
religion in all aspects--dogma, name, charter, canonical law, 
organizational structure.
    Yet, it occupies the Holy See and uses the letterhead, the 
seal, insignias, of the Cao Dai religion in all its 
communications and publications.
    Foreign governments, including our own Government, have 
thus mistaken it for the Cao Dai religion and misinterpreted 
its activities as greater religious for Cao Dai followers.
    This is analogous--the sect that does not recognize Christ 
as the son of God occupies the Vatican, persecutes Catholics, 
and yet presents itself as the Catholic Church, and the 
international community has been fooled.
    The new law on belief and religion has even more stringent 
registration requirements and will give local authorities even 
more power to curtail unregistered independent religions which 
represent the vast majority of people of faith in Vietnam.
    Three weeks ago, the government of Quang Tri Province 
officially declared that under the new law it is now illegal 
for the local parish priest to conduct prayer services in the 
private homes of his parishioners.
    In the case of the Cao Dai religion, the new law will 
certainly further tip the balance in the favor of imposter. In 
light of the above, I recommend that the U.S. Government, 
again, echoing the recommendation of Congressman Cao, 
redesignate Vietnam as a country of particular concern or at 
least place Vietnam on the international religious freedom 
watch list; apply sanctions under the Global Magnitsky Act and 
International Religious Freedom Act against not only government 
officials but also nonstate actors such as the Red Flag 
Association or the 1997 Sect that pretends to be the Cao Dai 
religion, found to be responsible for gross human rights 
violations; press Vietnam to immediately and unconditionally 
release all prisoners of conscience and amend its laws 
including the law on belief and religion to be in compliance 
with all human rights treaties that Vietnam is a state party 
of; work with like-minded governments to raise serious concerns 
on human rights issues at the Universal Periodic Review of 
Vietnam to be held in January of next year; and finally, engage 
directly with the unregistered churches to regular roundtable 
meetings with the representatives, the leaders both in Vietnam 
and in the United States.
    Thank you.
    [The prepared statement of Mr. Thang follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher [presiding]. I am Congressman Rohrabacher. 
Chairman Smith will be back, and I am very honored to chair 
this hearing while he's gone. Let me say hello to my old friend 
as well as new friends and just say that I personally 
appreciate what you're doing here today.
    You have listed for us the heroes and you listed for us the 
villains, and we have news for heroes, which is you are not 
forgotten. You may languish away. You may be just suppressed as 
the Cao Dai and our Montagnard friends are--or there's others 
there who are the villains.
    To the heroes we say you are not forgotten. The Vietnamese 
people who are standing tall during these bad times, you are 
not forgotten. You are not alone.
    And to the villains that torture them and conduct 
themselves in a repressive way toward their own people, we say 
we are going to get you. We are coming for you.
    The people who believe in freedom in this world will not 
forget the crimes that you committed against your own people 
right now.
    So thank you for being specific on what people are being 
actually oppressed and vilified and they're being treated and 
tortured--mistreated and tortured and their rights are being 
taken away specifically, which you both have, and thanks for 
naming the villains as well so that we can hold them 
accountable.
    Like I say, I didn't agree with the title of the Magnitsky 
Act, but I believe--I vote the actually substance of that act 
of holding people accountable. It is a major step forward for 
the United States.
    And now we will have Ms. PoKempner. Go right ahead.

STATEMENT OF MS. DINAH POKEMPNER, GENERAL COUNSEL, HUMAN RIGHTS 
                             WATCH

    Ms. PoKempner. I am truly honored to be here to testify 
before you, because the last time I presented testimony to 
Congress on Vietnam was around the time of normalization and 
Dr. Thang, I remember working with you in the camps in Hong 
Kong.
    I followed Vietnam for years as the researcher on Vietnam 
for Human Rights Watch, and my heart is heavy because I am sad 
to observe that the progress in human rights we had hoped that 
closer relations might bring has not been realized. To the 
contrary, we see a sharp decline in the very recent years.
    As everyone at this hearing has made clear, human rights in 
Vietnam are deeply restricted in almost every area and it has 
not changed significantly in nearly the quarter century in 
which I have followed the country.
    The Communist Party of Vietnam continues to maintain a 
monopoly on political power, suppresses every conceivable 
challenge to its authority or prestige, and it equates its 
self-preservation with national security.
    All basic rights including freedom of speech, opinion, 
press, association, and religion are conditioned on the 
supremacy of the party and, accordingly, restricted.
    Those who try to assert their rights against authority, 
promote rights awareness or write or speak about human rights 
in any medium face harassment, intimidation, physical assault, 
and imprisonment.
    These are the facts. Repression is not strictly partisan or 
ideological. Criticism of the status quo is enough to bring 
retribution.
    Farmers continue to lose land to development projects 
without adequate compensation. Workers are not allowed to form 
independent unions.
    The entire system of enforcement serves the interests of 
those in power. The courts are not independent. Police use 
torture and beatings to extract confessions.
    Plain-clothes thugs are deployed to harm and intimidate 
people when arrest or more formal confrontation is deemed 
inconvenient. Once detained, people may be further physically 
tortured, ill-treated, denied family visits, adequate food, or 
needed medical care.
    This is all well known. It has been known for decades. 
Despite this, increasing numbers of bloggers and activists have 
called publicly for democracy and greater freedoms but Vietnam 
is not letting them speak.
    In recent years the government has arrested and criminally 
prosecuted an increasing number of people for simply saying 
things critical of the government.
    In 2017, we know police arrested at least 41 people, by our 
count, for sweeping national security offenses that are used to 
punish critical speech, peaceful activism.
    In the first 5 months of this year, the courts convicted at 
least 26 people for political offenses. Although it's always 
difficult to get reliable figures, our impression is the trend 
in numbers of people being arrested and convicted have been 
increasing and the harshness of sentences meted out has 
increased as well.
    And there's no sign of change or progress. To the contrary, 
Vietnam's legislature is scheduled to pass a cybersecurity law 
on June 12th that will provide yet another way people who 
criticize the government or the party can be silenced and 
punished, and it's going to be enlisting local and foreign 
companies in this suppression.
    We are about to publish a press release on this topic. I 
will give you a little preview. This law will give the ministry 
of public security the power to command the erasure of all 
kinds of forbidden content. Forbidden content in Vietnam can be 
anything that is simply disfavoured by the government. It will 
force companies to verify the real names of users, keep those 
names localized in Vietnam, and produce them to public security 
on demand, and then to force companies to deny services to 
those who post what the government--that is, the ministry of 
public security--considers forbidden content.
    It will also access information that is behind a firewall 
via a VPN a crime. This is one of the more repressive 
cybersecurity laws we've seen. We think it's something that 
Congress must take note of.
    Mr. Chairman and--sorry, Representative Rohrabacher, 
members, our chief recommendation to the committee and to the 
U.S. Government in general is to speak much more forcefully and 
publicly to the Government of Vietnam about the problems and 
use the whole of the U.S. Government to do so.
    Every congressional office, every Federal agency that 
engages with Vietnam, and whether it's on trade, military 
assistance, hardware and software transfers, education, or any 
other subject should be expressing deep concern on human rights 
to its counterparts.
    They should be saying in this kind of frank language: We 
see what you're doing and it's tremendously disappointing to 
us. The fact that your government continues to beat, detain, 
incarcerate people for dissent or religious conviction more 
than two decades since the normalization of relations, it's a 
constant source of injury to this relationship between our 
country and yours. Your actions imperil our security and 
economic relationship--a problem which in the context of an 
increasingly dominant China is not a good thing for you and 
it's not a good thing for us.
    Congress should be sending delegations to Vietnam who can 
speak these concerns face to face. We also recommend that you 
list key cases of concern you'd like to see resolved. Tell them 
that you know who they are detaining. Tell them about Nguyen 
Van Dai.
    Tell them about Tran Huynh Duy Thuc, a 51-year-old 
entrepreneur who is serving 16 years in prison for calling for 
democracy and a multi-party political system.
    Why don't you enquire about Nguyen Ngoc Nhu Quynh, also 
known as Mother Mushroom, a woman who is sentenced to 10 years 
in prison for advocating social and political issues such as 
land confiscation, displacement of communities, police 
brutality, freedom of expression.
    Hoang Duc Binh, 34, a very young man sentenced to 14 years 
in prison for his activism to promote the rights of workers and 
fishermen in the context of that disastrous 2016 Formosa toxic 
spill.
    We would also suggest you raise the case of Ngo Hao, a 70-
year-old human rights and democracy activist currently serving 
a 15-year sentence after writing articles calling for 
transition to democracy in Vietnam.
    According to his family, he's suffering from poor health 
including high blood pressure, gastric ulcers, high 
cholesterol.
    We ask that you raise these very specific cases because 
pressure on specific cases we know leads authorities to speed 
parole or improve conditions for prisoners. I have heard this 
directly from released prisoners. Your words, your actions 
directly affect their lives.
    In fact, they have--even if you--even if it fails to make 
an immediate improvement, they will hear about it. It will 
provide them comfort on a psychological level. It's a good deed 
to do. It's easy.
    We also suggest that should the National Assembly enact the 
cybersecurity law that I just described to you in detail that 
will make online dissent even more dangerous and enlist the 
complicity of U.S. corporations in Vietnamese repression that 
you react and react very strongly in protest.
    Vietnam's actions of this nature should influence how 
Congress views its role in keeping U.S. technology and industry 
from being used for the purpose of stifling rights.
    Freedom of speech, freedom of information, freedom of 
opinion, and freedom of conscience are values that are central 
to this country, to its people, to its democracy, its security 
and, therefore, to its foreign relations.
    Attached with my written testimony is a list of 140 
prisoners detained for merely exercising their rights who are 
currently known to Human Rights Watch.
    Each and every one of them deserves your attention. Thank 
you so much.
    [The prepared statement of Ms. PoKempner follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith [presiding]. Thank you so very much for your 
testimony.
    I would like to now go to Anthony Le.

     STATEMENT OF ``ANTHONY LE'' (AN ALIAS), SPOKESPERSON, 
                   BROTHERHOOD FOR DEMOCRACY

    Mr. Le. Thank you very much.
    Dearest members of the United States Congress, guests, and 
media organizations who has a concern to human rights in 
Vietnam, my name is Thanh Tung and I am a member of Brotherhood 
for Democracy.
    I have just come from Vietnam. I am here today to speak of 
the ongoing crackdown by Vietnamese authority to Brotherhood 
for Democracy members over the past 5 years.
    Brotherhood for Democracy established in April 2013. There 
was a need for democratic society and sustainable development 
in Vietnam.
    Today, we have more than 100 members of across all regions 
of Vietnam including members and some from around the world.
    Our goal is to promote democracy in Vietnam, develop civil 
society and disseminate the Universal Declaration of Human 
Rights and support other civil society in various projects.
    Our previous work includes the launch of the Brotherhood 
for Democracy, meet the needs of those who wanted to promote 
human rights and democracy in Vietnam. These are the values of 
many Vietnamese and since the founding of the Brotherhood for 
Democracy, hundreds of people have joined our organization. We 
have 32 members working full time and part time.
    Over the 4 years, we have established a solid structure and 
various working groups to organize 16 training courses on civil 
society both online and offline and we have over 250 candidates 
trying to learn.
    And face to face training involves over 100 people who are 
concerned with Vietnam human rights. We also support the 
world's demands of labor rights and we support the fishermen to 
demand for environmental justice and lawsuits against the issue 
of Formosa following the environmental that left tons of toxins 
and fish washing ashore across six provinces in central Vietnam 
in 2016.
    We support the land rights petitioners and victims of 
government land grabs and, of course, without ongoing 
harassment from the Vietnamese authorities.
    Given that Vietnam is an only one-party state, the 
Communist Party of Vietnam does not allow civil society groups 
to operate without their knowledge or supervision.
    Because of this, it is necessary for Vietnamese authorities 
to stop the activities of various civil society groups. This 
has happened to the Brotherhood for Democracy. So that our 
organization has been harassed from the very beginning.
    From May 2014, three members--Nguyen Nam Trung, Pham Minh 
Vu and Nguyen Thi Phuong Anh--were arrested for attending the 
protest organized by workers in Binh Duong Province.
    On November 2014, our worthy brother, Truong Minh Duc and 
other member were physically attacked with severe injuries 
after supporting workers demanding for labor rights in Binh 
Duong Province.
    In December 6, 2015, our members, Nguyen Van Dai and Ly 
Quang Son, were attacked and beaten after facilitating a 
training on the Human Right Declaration on in Nghe An Province.
    And December 16, 2015, Nguyen Van Dai and Le Thu Ha were 
arrested by the authorities.
    In October 2016, eight members in central Vietnam including 
Nguyen Trung Truc, Mai Van Tam, Tran Thi Xuan, Nguyen Van 
Thanh, Nguyen Ngoc Lanh, Nguyen Van Giap, Vo The Truong and Que 
were detained and severely beaten, had their possessions 
confiscated and clothing removed before they had been bring to 
the jungle in Huong Son Forest in the Ha Tinh Province.
    In February 2017, our chairman, Pastor Nguyen Trung Ton, 
was assaulted and beaten around the feet with an iron bar, 
until now still unable to walk properly.
    From the end of July until August 2017, seven members and 
one former members--Pham Van Troi, Nguyen Trung Ton, Truong 
Minh Duc, Nguyen Trung Truc, Tran Thi Xuan, Nguyen Van Tuc, Vu 
Van Hung and Nguyen Bac Truyen were arbitrarily arrested.
    Nine members and one former member of the Brotherhood for 
Democracy were unlawfully detained between December 2015 and 
the end of 2017 for activities aimed at overthrowing the state, 
according to Article 79 of the Vietnamese penal code. Many have 
been sentenced to lengthy prison terms.
    And our remaining members are all being threatened and 
issued arrest warrants, with ongoing harassment of family 
members. Six members of us have had to flee to Thailand to seek 
asylum.
    Some members have had to flee their homes for the past 
year, with their close ones being continually harassed by 
authorities.
    And for myself, I personally have been far from home from 
August 2015 till now. I am luckier here and have safety in the 
United States, but my wife and children continue to be 
harassed.
    My wife has been attacked by local police within the 
confines of her home and my children have been detained while 
traveling to school to question them about me.
    Police have installed five cameras around my home in Saigon 
and anyone who approaches my home is questioned immediately 
after. No one has come to my home over the past 2 years.
    On behalf of the Brotherhood for Democracy, I would like to 
suggest the following. The United States Congress and the 
government call on the Vietnamese Government to end its 
crackdown on the Brotherhood for Democracy and unconditionally 
and immediately release all of our members as well as all 
prisoners of conscience, dissidents, and religious activists.
    Call on authorities to stop harassing and intimidating 
Vietnamese activists. We hope the United Nations and various 
NGOs, media, and individuals in Vietnam and around the world to 
support the Brotherhood for Democracy as well as the democracy 
movement in Vietnam.
    Members of the Brotherhood for Democracy as well as their 
families express their ongoing struggles and hope there will be 
a brighter future for the Brotherhood for Democracy as well as 
for all Vietnamese people.
    Thank you very much.
    [The prepared statement of Mr. Le follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Thank you so very much.
    Chairman Rohrabacher does have to leave.
    Mr. Rohrabacher. Well, thank you very much. I am sorry I am 
going to have to rush out. A very important call--it's really 
important. But I want to express my thanks to the witnesses.
    Thanks to the chairman. You have done a great service to 
the free people of the world today. You have put on the record 
names of people who have been oppressed and tortured, and now 
there is a record--official record--of these people.
    They--the message we will have at the end of this hearing 
to those who are the oppressed, to those who are the victims, 
they are not alone.
    The victims of tyranny in Vietnam are not alone. We are 
with them. They are on the--we are on the record now of knowing 
who you are, and that's true--as I mentioned before, that's 
true of their torturers and the villains that murder and 
repress those people.
    We need those names--you have given us a few of those as 
well--because we do believe in holding accountable the tyrants 
in this world.
    And Mr. Chairman, we need to hold accountable YouTube and 
Facebook and other American companies, as was talked about 
today, who collude--people like to use that word nowadays--who 
collude with this tyrannical gangster regime in Vietnam.
    I spent a little time with the Montagnards back in 1967 and 
it breaks my heart to know that they're being--that they found 
Christianity and that they're being oppressed because of it.
    And I know that the Cao Dai--I remember them as well--who 
were so devout even in those days. So perhaps one of the things 
we need to feel bad about in America is when we were there--
when I was with those Montagnards we encouraged them to side 
with us, and then we ran away.
    Well, now we can make it up to the Vietnamese people to 
make sure that now, as Vietnam needs us in their confrontation 
with China as a nation, that we insist that there be political 
reform and social reform there and that the gangster regime 
gives up the power to the people of Vietnam.
    So we are siding with the people, as we should have always 
along and had courage to do so.
    Thank you all for your testimony today and thank you, Mr. 
Chairman, for all the commitment you have shown to human rights 
throughout the world, especially here in Vietnam. So thank you.
    Mr. Smith. Thank you, Dana, and thank you for your 
leadership as well. It's all about team effort.
    Let me just ask our distinguished panellists some 
questions, and thank you all for your testimonies. Without 
objection, anything else you wanted to add to the full 
statements and thank you for the list of prisoners from Human 
Rights Watch. We need names--always need names. We compare it 
with others to make sure we do not leave anybody out 
inadvertently. So thank you for that.
    Let me just ask you, if I could, Dr. Thang, starting with 
you--on religious freedom, the designation of CPC--country of 
particular concern--was done away with during the Bush 
administration simply because of the bilateral agreement and 
promises that were made of what they called deliverables at the 
time on human rights.
    I travelled, as you might recall, on one of the many trips 
to Vietnam. I went to Hue, Ho Chi Minh City and Hanoi and met 
with probably upwards of 60 different people, all the different 
religions--Venerable Thich Quang Do, like so many of my 
colleagues and I have met, who is still under pagoda arrest, 
and Dr. Li--Father Loi, all these wonderful, wonderful people--
Cao Dai religion adherents.
    And they were hopeful. They thought that maybe something 
was going to happen for real. There were new policies in 
effect, and yet it was a total unmitigated disaster. We now 
have a new law that went in effect in January and I think some 
of the same people are saying this could be a positive 
development. We'll be sorely disappointed by it, and you might 
want to speak to that issue.
    You really did emphasize--and I am glad you did--that Cao 
Dai has been eviscerated by the government. The forced 
renunciations of faith by the Hmong and others--the Highland 
people, who are being told they can't practice their Christian 
beliefs.
    The numbers went down right before a bilateral trade 
agreement was accepted. But I will never forget the day of the 
consummation of that agreement the Vietnamese foreign ministry 
put out a statement to the effect of there's no legacy of human 
rights.
    So they did everything they could to make it look like we 
were on the verge of major positive developments and it was 
nothing but a ruse.
    And I think there's too often--so if you could speak to 
CPC, I would also raise the issue. When Nguyen Xuan Phuc, the 
President, was here in May, the communique that came out was 
very disturbing--between him and President Trump--to the effect 
that the U.S. welcomed Vietnam's ``ongoing efforts to refine 
its legal system to better protect and promote human rights'' 
in the face of a gross deterioration of human rights.
    They can pass all the policies for international 
consumption that they want, but we want it on the ground to 
help people and to protect their fundamental rights.
    So how did that happen? Any of you might have any insights 
on that. I would note for the record--I mentioned it in my 
opening statement--that for three successive Congresses and 
then once as an amendment, so four times--the Vietnam Human 
Rights Act cleared the House.
    It was my bill. We worked very hard on it--totally 
bipartisan, everybody was here today. Zoe Lofgren, everybody--
were all co-sponsors. It was totally bipartisan.
    It got over to the Senate. Holds were put on it. John Kerry 
always put a hold on it. But we know the Podesta Group worked 
overtime to defeat it, and we know there are other lobbyists 
who were trying to defeat it.
    I am wondering if maybe even that joint communique--Reuters 
suggested in an article that they had--lobbyists had had an 
impact on that joint communique from our President and 
Vietnam's President which was totally misleading.
    So if you wanted to speak to that, then I would also ask, 
if I could, Ms. PoKempner, on that cyber law, June 12th, I 
think, is when the vote might be. That could always change but 
I think that's when they're planning on it.
    Back in 2006, I held a hearing as China Commission and 
Human Rights Chairman here on the House side on what Google, 
Yahoo, Microsoft, and CISCO are doing to enable the 
dictatorship in Beijing by censoring, by tracking down 
individuals.
    Shi Tao--remember they found him via Yahoo and he got 10 
years for telling people what Tiananmen Square dos and don'ts 
were--and they were all don'ts coming from the government. Ten 
years for a simple conveyance of a message to a human rights 
group in New York City.
    I am very concerned and I know you are as well that Google, 
Facebook, YouTube have all removed content, kowtowing to Hanoi. 
We need to be, as you said too, as loud and as clear as 
possible that these U.S. corporations and multilateral 
corporations have to get some backbone and stand up to these 
dictatorships.
    I remember Jerry Yang said--Jerry Yang from Yahoo--at one 
of our hearings that he said they're removing their content in 
Vietnam--personally identifiable information--so that the 
government would have that easy access that they have had for 
years in China.
    But this is very, very disturbing--Google, Facebook, 
YouTube, and the like. You know, so it's like deja vu all over 
again. It's been banned in Vietnam. It's been worse in China. 
But now we are seeing catch-up ball on the part of the 
Vietnamese.
    So if you could start off and then I have some other 
questions as well. Maybe, Dr. Thang, and Joseph, if you would 
like.
    Mr. Thang. Yes.
    We sounded the alarm about the new law on belief and 
religion when it was still being drafted back in 2015, and we 
pointed out three areas of concern.
    One is that it still maintains the requirement for churches 
and institutions and communities to register and be recognized 
and approved by the government.
    Secondly, the language is so vague that anyone can 
interpret it whichever way he or she wants, right. Just like in 
the example that I mentioned in my testimony.
    A local authority said that, well, from now on the parish 
priest can no longer conduct a prior service at the private 
home of his parishioners and he cited the new law. The local 
authorities recited the new law to justify that.
    The third area of concern is that the definition of what 
is--what religion is, what belief is, what an adherent is--are 
very restrictive.
    For instance, the definition under the new law of an 
adherent is that he or she must be recognized by a religious 
organization, and a religion organization must be recognized by 
the government.
    In other words, now a follower--a member of an independent 
unregistered church would not be considered as a religious 
follower under the new law and, therefore, sentencing that 
person to, say, 5 years prison would now be explained as not 
religious persecution.
    So that is the trick that the Vietnamese Government is 
playing and I am afraid that we have fallen into that trap.
    Now, not too long ago, I had a one-on-one hour-long meeting 
with the new Ambassador to Vietnam, Kritenbrink. He is very 
concerned about human rights issues in Vietnam--very genuine--
but he's very new.
    And I also spent--I had meetings with the new Ambassador-
at-Large on international religious freedom, Sam Brownback. 
He's a champion, and I made two comments--recommendations to 
both.
    One is to place Vietnam at least on the watch list. At this 
time--because this is a very serious time as Vietnam is still 
deciding on how to interpret its law on belief and religion.
    If we wait for another year it might be too late because 
they already have redefined other language intentionally left 
vague so as to further restrict religious freedom.
    So placing Vietnam on the watch list now for at least 2 
years, that will send a very strong signal that we are 
watching. That hasn't happened.
    Hopefully, after a few months for these two diplomats to 
get to know more of Vietnam, maybe with some nudges from 
Congress, maybe Vietnam would be placed on either the CPC list 
or the watch list.
    The second recommendation is that for Mr. Kritenbrink and 
also Sam Brownback and others, to hold periodic roundtable 
meetings with religious leaders of persecuted communities in 
Vietnam--indigenous and religious communities in Vietnam, just 
like the IRF roundtables that are being held here--and I know 
that Scott Flipse has attended quite a few of them--and make 
that into routine.
    Initially, the Government of Vietnam would protest against 
that, would block people from coming. But if we keep doing that 
every 3 months, for instance, then slowly Vietnam would accept 
that as a fait accompli, and that would bring confidence to 
those communities and it will assure that anything happened in 
those communities will be known by the U.S. Government 
immediately, or at least by the next roundtable meeting.
    So those are my two recommendations and I would like to 
offer the same recommendations at this hearing.
    Mr. Cao. Mr. Chairman, I would like to add that, you know, 
both you and I--we fully understand that the concept of 
religion and religious faith is more than simply going to 
church every Sunday and then go home.
    We fully understand that the practice of faith, which 
includes fighting for social justice, advocating for the 
oppressed, for the poor, for the elderly, all of that is 
encompassed in religious faith.
    And with the law on religion and belief, with the vagueness 
of how they define religion, any of these acts can be 
considered as acts against the state and be prosecuted.
    So, again, that is something that we have to be concerned 
about and to have to pay attention to. And, you know, there is 
an old saying that with the Communists--do not listen to what 
they say but watch what they do.
    What they say is very rosy, oftentimes painted. You know, 
when you look at Ho Chi Minh City and Hanoi through the Travel 
Channel, everybody thinks that wow, these are a paradise that 
we should go and visit. But in reality, Vietnam is an oppressed 
state.
    People are being routinely arrested, prosecuted under 
dubious laws, tortured routinely, and that has to be revealed 
to the world to let people understand that Vietnam is more than 
simply Saigon and Ho Chi Minh City through the Travel Channel.
    Mr. Smith. Ms. PoKempner.
    Ms. PoKempner. Just to add, because I am a law professor, I 
wanted to point out to you that freedom of opinion and belief 
are among the very strongest human rights that exist.
    They don't admit of any limitation at all, and so when we 
learn that things like forced renunciation of faith is still 
occurring, this is a violation without a conceivable excuse and 
we should be reacting very strongly to it.
    On the law, I think you're right to pay special attention 
to this. This is one of the most oppressive cybersecurity laws 
I've read, and I've read quite a few now, and it puts companies 
in a tremendous bind.
    As you know, any company is obliged to respect the law of 
the market it operates in. But in this case it's going to make 
many American companies have this direct conflict that they 
could be placed right back where Google and Microsoft were in 
China, as you observed, and be forced to essentially condemn 
people who would be fully protected under either the laws of 
our Constitution or the laws of the United Nations--that 
Vietnam as freely agreed to--and condemn them.
    And it's going to be essentially a move that puts to them 
this stark choice--either help us commit human rights 
violations or get out of this market.
    And if that is, indeed, the choice and if the Congress 
cares about U.S. companies as well as human rights, it ought to 
be thinking well, what does this mean for our giving access to 
Vietnam on a whole--you know, to our markets to Vietnam--what 
does this really mean about international security and the 
freedom of companies to operate across borders.
    So there are very profound questions for regulators here 
and they're not only about blaming the companies. The companies 
will have to make their decisions but they're in a difficult 
position.
    It's people who control the law and the regulation 
throughout our Government. We deeply appreciate your role, Mr. 
Chairman. I deeply appreciate the many constructive things that 
Representative Rohrabacher and many others have done throughout 
the years.
    I resonate with pain on these tales of Montagnards. I work 
to actually identify and protect Montagnards from repatriation 
on Hong Kong. There's a long and very noble history of this 
House in trying to act on Vietnam's human rights.
    But we need the whole of government. We need the entire 
administration. We need the Senate, too. And everyone has to 
pull together to send this message.
    In our experience, the Vietnamese Government is pragmatic. 
When it feels it has something to lose, it will act, and in our 
experience, the Vietnamese Government is complex, just like 
most governments.
    It has people who are very entrenched in the old ways, 
people who are thinking about new ways and trying to be 
progressive and keep the door open to the modern world.
    So you have to deal with it and give it time to adjust. But 
it won't happen without incentives. So we raised a number of 
different avenues--that they all have to be considered.
    We are there to support you.
    Mr. Smith. Thank you.
    Mr. Le, if you could. We know about the Formosa 
environmental disaster, but if you could bring some additional 
focus on it.
    How did you become an advocate? The background of the 
Brotherhood of Democracy--a little insight into that, if you 
would, and also to make very clear--we are concerned--I am 
concerned, as chairman, for your family still in Vietnam and 
your wife and child--if they are threatened in any way.
    In the past we have had--Nguyen Van Dai's wife here who 
testified on his behalf--was brilliant in her testimony--like 
our witnesses today, just got it very clear, very precise, and 
very eloquent as to what needs to be done and what the 
situation is on the ground.
    And he is on his way to freedom right now but we can't 
announce it yet. But I just want to say, we want to give you 
every assurance that we will absolutely go to bat for your 
family if we hear that something has happened.
    So please know that it matters a great deal to my 
colleagues and I on both sides of the aisle and let the 
Vietnamese Government take note of that, because that crosses a 
huge bright line of demarcation if they were to retaliate 
against them.
    But could you elaborate, if you could, on the environmental 
disaster?
    Mr. Le. Yes. Formosa is--from April 2016, the Formosa 
company, they waste toxins to environmental and the Formosa 
they pay $500 million to--for their people there. But actually 
our fishermen there don't receive any money from--the 
compensation from Formosa, and the compensation it come to 
another group of people, and we know that and we organized a 
team to come to the fishermen--come to the village to help the 
people to make document--to make the legal documentation, 
submit to the local authority to ask for the compensation from 
the Formosa. That is the first thing we have to do.
    Secondly, we cooperate with other NGO and we ask some civil 
society local to organize some work group to help the people 
and as well as we are together because the people we are 
together to support the people there to make the news and bring 
the things to the public areas to internets.
    That's it--the two things we have done for our--for the 
issue of Formosa.
    Mr. Cao. Mr. Chairman, I would like to add that the 
system--there's no transparent system compensation. I recently 
spoke with a bishop from Vietnam and he told me that they don't 
know what has been happening with the $500 million that was 
being allegedly paid by Formosa.
    Most of the victims have not received the money. 
Ironically, the fishermen of Nghe An Province they were at the 
epicenter of the disaster, and based on my information and 
belief, those people were not even in the compensation package.
    So, again, I would ask that the Congress request that 
Vietnam implement a transparent system of compensation similar 
to what happened during the BP oil spill here in the United 
States.
    It was being controlled by and oversaw by a Federal judge 
down in New Orleans. I would highly recommend that a similar 
system would be implemented in Vietnam with similar reporting 
procedures.
    If you would excuse me, I have to meet this deadline for a 
few minutes.
    Mr. Smith. Yes. Dr. Thang.
    Mr. Thang. I would like to add information regarding the 
disaster caused by Formosa steel plants in 2016.
    First of all, we have--we know that--I have been in touch 
with communities in that area every week and the fishing 
industry is dead.
    It may take decades to revive it. So there's a huge loss of 
livelihood among the fishermen, the fishing communities, and 
many of those are actually Catholic parishes living along the 
coast of five provinces.
    Now, one entire province that is the most populace province 
that got affected severely by the environmental disaster and 
that is Nghe An Province.
    It is completely excluded from the compensation package, 
and that's why there's a lot of protest and that's why--and 
among all those affected the Catholic parishes were at the 
forefront of the demonstration to demand fair, just 
compensation.
    And that's why the government created the Red Flag 
Association, to suppress these communities--these advocates.
    The second aspect I would like to bring to your attention 
is the health issue. They're documenting right now and there 
are more and more reported incidents of miscarriage among the 
villagers affected by the environmental ecological disaster and 
there is more reported prevalence of cancer cases in those 
areas, and there has been no studies along that line.
    And finally, human trafficking--because of the loss of 
livelihood so a lot of these younger villagers, formerly 
fishermen, now have to join the labor export program of the 
Government of Vietnam.
    And we have cases--we know cases where a person applying to 
go to Taiwan or to South Korea had to pay $16,000 in service 
fees.
    Now the law would cap that to just 1 month of salary per 
year of contract--say, $2,000 a month for 3 years of contract, 
that it should not exceed more than 3 years. So no more than 
$6,000.
    But a lot of these villagers didn't know the law and they 
had to pay $16,000 and they had to mortgage off their homes and 
farmlands and the homes and farmlands of their parents and 
siblings.
    And according to our calculations, most of them would still 
be in debt after the 3 years working overseas. And for the 
first time last year, the number of migrant workers exported 
out of countries exceeded 100,000 by far. It was, like, 
120,000.
    So I am afraid that human trafficking--labor trafficking is 
on the rise because government officials are taking advantage 
of the misery caused by the Formosa-induced disaster--
environmental disaster.
    Mr. Le. Thank you very much for invitation, for inviting me 
here. So now I got bright news. I did receive around 2\1/2\ 
hours ago. I am here on behalf of the Brotherhood for 
Democracy.
    I would like to thank you very much for letting us meet the 
chairman and some Congress members here and various people have 
support for the Brotherhood for Democracy.
    Two and a half hours ago, I was with a Brother and his wife 
and with his sister was released and now is on a flight to 
Frankfurt and hope they will arrive to Frankfurt around 
midnight, the time of Washington, DC. His name is Nguyen Van 
Dai and Le Thu Ha, and his wife is also on the flight now.
    So thank you very much for your support and help the 
Brotherhood for--during that time. Thank you very much.
    Mr. Smith. Through the time I will just ask two final 
questions, and thank you very much, and I think, Dr. Thang, you 
are aware that I am the author of the Trafficking Victims 
Protection Act.
    I've been very concerned that for 6 straight years Vietnam 
has got a Tier 2 rating. Minimally, it should be on the watch 
list--if not Tier 3, where I think it really belongs.
    They do have a sex trafficking problem but I think the 
labor trafficking problem is enormous, and we've had specific 
hearings in this subcommittee just on that, and I wondered if 
any of you would want to speak to that. The TIP report isn't 
out yet.
    Designations probably have been made already. We tried to 
weigh in as best we could as a subcommittee for countries that 
ought to be Tier 3.
    But if you could speak to that, and I would just point out 
one other law that I wrote that took 8 years to get out of the 
Senate, five times passed in the House--known as International 
Megan's Law.
    It's now been in effect for a little over a year. We notice 
countries of destination when a convicted pedophile is 
travelling. Its inspiration came from Megan Kanka, my home town 
constituent who was brutally murdered by and sexually abused by 
a convicted pedophile who lived across the street.
    So there are Megan's Laws in every single state of the 
union and the District of Columbia and Puerto Rico. But, 
frankly, internationally, there's not many Megan's Laws.
    This law, as I think you know, notices countries of 
destination when a convicted pedophile plans to travel and 
there's a very severe penalty if they don't notice us, us being 
state police and then State Department.
    And the Angel Watch program now has been built and fully 
and very robustly staffed, and a little over a year in 
operation 3,600 convicted pedophiles have been noticed to 
countries. Many of them have been turned back because we know 
why they're going. They're on secret sex tourism trips to 
exploit little girls and little boys.
    While Vietnam, as it turns out, is a destination country 
for many, we know other places like Thailand are working 
overtime to deny entry into their country when we notice such 
an exploiter coming their way.
    Vietnam has been unresponsive. We are trying to tell them 
so and so is coming--here's their record and they could abuse 
your children horribly--and yet they are unresponsive.
    To me, it's an insight like few others about an 
indifference that is so callous toward their own children.
    Secondly, on the issue of--we just, sadly, remember the 
29th anniversary of Tiananmen Square. Much of the world seems 
to want to forget it. Certainly, in China, they forcibly forget 
it in terms of their news media and what they teach their 
children in school.
    But there is a concern that with demonstrations against 
Chinese investments and incursions into the South China Sea or 
environmental disasters that these people who will protest will 
be met with violence and there's a very big anti-China 
demonstration planned for June 10th and I am wondering what 
your concerns might be and is there anything we should be 
doing, our Ambassador, to mitigate what could be bloodshed 
meted out by the Vietnamese Government.
    Anybody want to take those?
    Mr. Thang. Yes. About human trafficking--yes, over the 
years we have rescued thousands of victims in destination 
countries and we continue to work on that--to rescue more 
victims.
    However, we cannot stop the flow if we don't do anything--
if we cannot stop it at the roots--that is, in the source 
country, and there is no way for us to go to Vietnam and stop 
it.
    However, there might be an opportunity here because of the 
Formosa-induced ecological disaster. I would like to propose 
that we, our Government, and through Congress we ask USAID to 
have programs in those areas to help develop livelihood 
opportunities for these fishermen who have been affected--to 
have development projects and work directly with the churches--
independent churches--the Catholic churches that have been 
doing that.
    The Diocese of Vinh has been doing that. They don't ever 
get funded by USAID. Now, not too long ago, just last month, 
again, Ambassador Sam Brownback brought into our roundtable 
meeting representatives of the USAID offices and I think that 
they are now willing and open to suggestions that USAID should 
fund directly to independent religious organizations to do the 
good work that they have been doing.
    So USAID, if they are in there, they can work with and 
provide technical assistance and coaching to the real people 
doing the real work on the ground, especially the independent 
churches, to develop livelihood projects.
    At the same time, they can educate the people on the 
ground. There are simple tips that they can learn on how to 
avoid becoming victims of human trafficking, especially labor 
trafficking.
    For instance, you should not sign a contract without 
reading it. You should not agree to go overseas and work 
overseas on a tourist visa, for instance.
    There are simple red flags and we have developed materials. 
But the challenge is to get those materials and that 
information directly to the villagers that are vulnerable to 
human trafficking in Vietnam.
    Thank you.
    Ms. PoKempner. I would simply urge that when you look at 
this problem of human trafficking, it ought to be a topic on 
which you can constructively engage the government.
    The Government of Vietnam does spend money and does have a 
bureaucracy that is devoted to this problem as well as related 
problems.
    But, as you pointed out, it's not doing enough. But I think 
this is at least an area where cooperation and engagement is 
promising as well as the application of American aid.
    I would urge you to look not only at victims of sexual 
trafficking but labor trafficking generally. We are doing a lot 
of research on trafficking in the fishing industries and I am 
sure as Dr. Thang knows, this is a big, big problem in Thailand 
and a lot of the labor is coming from Burma and Vietnam.
    So there's a regional interest in getting a hold of this 
and this is affecting American companies when they discover 
that there are marketing goods produced by slave labor.
    So I think this is a very promising area of engagement 
where, fortunately, economic interests and human rights 
interests align well.
    Mr. Smith. I will just conclude. Any further comments you 
might want to make if you do--yes, Doctor.
    Mr. Thang. Relating to the case of Nguyen Van Dai and his 
wife and his partner, Le Thu Ha, I would like to point out that 
collaboration with other governments might make a difference.
    I have noted that over the past year there has been 
increasing collaboration between human rights offices at our 
U.S. Embassy in Vietnam and other Embassies such as the United 
Kingdom, France, Switzerland, Canada, Australia, and E.U., for 
instance.
    Mr. Smith. And Germany.
    Mr. Thang. And Germany, yes--and Germany, definitely. And 
in this case of Mr. Dai, our public--most of the credit should 
go to VETO!, our long-time partner in Germany, and the 
Government of Germany.
    They have been very strong on this. I know that they have 
been working with our own State Department on this case, and I 
hope that by more collaboration like that, especially you 
already know about the Interparliamentarian Panel on Freedom of 
Religion and Belief.
    We are working with them and they are now connecting 
themselves--networking themselves with ASEAN parliamentarians 
for human rights in ASEAN.
    So a network like that would really, really help to further 
many of our common causes.
    Thank you.
    Mr. Smith. I thank you.
    I thank you very, very much for your insights, for your 
expertise, your leadership, and for your patience, having a 
late start because of the votes.
    Again, our bill that's pending--hopefully it will be marked 
up soon. If ever there was a time--and it does call for a 
designation of CPC, country of particular concern, because of 
religious persecution by the government. I will never forget 
talking to Rabbi Saperstein, who was the predecessor, 
obviously, to Sam Brownback as the Ambassador-at-Large for 
religious freedom. He did a wonderful job.
    But when he was meeting with Tran Thi Hong, she was 
beaten--beaten. Government thugs beat the wife of a pastor, 
Nguyen Cong Chinh.
    I mean, if that isn't a wake-up call, when the highest 
official for religious freedom in-country--in Vietnam--and 
that's how they respond. It shows the animosity that continues 
to be animosity on steroids.
    So we have to push back hard, and I think, as you pointed 
out, Ms. PoKempner, they take notice. When we say something, we 
mean it, it's predictable, we are not kidding, we are not 
vacillating, things will happen, and particularly when there's 
a penalty attached to it.
    So CPC has at least 18 prescribed remedies--penalties--that 
are very significant. And I know when other countries have been 
put on lists like that--they know we mean it--it has an impact.
    So let's hope the administration does the right thing on 
that.
    I thank you so much. Hearing is adjourned.
    [Whereupon, at 4:04 p.m., the committee was adjourned.]

   
   
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
